audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Cash and Property by the Chicago Housing Authority Police Department

GR-50-99-003
February 22, 1999

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the use of equitable sharing cash and property by the Chicago Housing Authority (CHA) Police Department (PD). The audit was conducted in response to concerns raised by the Office of Justice Programs (OJP) in connection with other OJP funds awarded to CHA. Between October 1, 1991, and July 27, 1998, the CHA PD received at least $156,842 of equitably-shared cash and property. Expenditures during this same period totalled $60,409. 

Existing internal controls over equitable sharing assets were not adequate to ensure that receipts were properly accounted for, and transactions were accurately recorded and supported. As a result, we question $56,151 of the equitably shared funds reviewed, as summarized below:


A total of $31,901 could not be verified as received by the CHA PD.

	Another $7,090 could not be traced to bank deposits.

	Receipts totalling $1,413 were erroneously deposited into the CHA PD's State forfeiture account.

	Expenditures amounting to $15,147 were not supported.

In addition, the CHA PD did not prepare and submit equitable sharing agreements or annual cost certifications, as required. 

The details of our audit are contained in the Findings and Recommendations section of this report. Our scope and methodology described in Appendix I.